DEPARTMENT OF HOMELAND SECURITY
   Office of Inspector General


      Acquisition Workforce Training
            and Qualifications




OIG-08-56                MAY 2008
Table of Contents

Executive Summary .............................................................................................................1
Background ..........................................................................................................................2
Results of Audit ...................................................................................................................4
     DHS and Component Databases....................................................................................4
     Component Supporting Documentation ........................................................................6
     Government-wide Acquisition Career Management Information System ..................10
     DHS Management Directives ......................................................................................10
     DHS and Component Initiatives ..................................................................................12
Conclusions........................................................................................................................13
Recommendations..............................................................................................................13
Management Comments and OIG Analysis ......................................................................14
Appendix A: Purpose, Scope, and Methodology.............................................................15
Appendix B: Management Comments on the Draft Report ............................................16
Appendix C: Acquisition Personnel Database Comparison, by Component ..................29
Appendix D: Major Contributors to this Report..............................................................30
Appendix E: Report Distribution ....................................................................................31



Abbreviations
ACMIS                 Acquisition Career Management Information System
AWF                   DHS Acquisition Workforce Development Office within the Office of the
                             Chief Procurement Officer
CBP                   U.S. Customs and Border Protection
CO                    Contracting Officer
COTR                  Contracting Officer’s Technical Representative
DHS                   Department of Homeland Security
FAC-C                 Federal Acquisition Certification in Contracting
FAC-P/PM              Federal Acquisition Certification for Program and Project Managers
OMB                   Office of Management and Budget
PM                    Program Manager
TSA                   Transportation Security Administration
OIG
Department of Homeland Security
Office of Inspector General

Executive Summary
                This report addresses the Department of Homeland Security’s
                acquisition management challenges for ensuring that contracting
                officers, program managers, and contracting officer’s technical
                representatives, herein referred to as acquisition personnel, meet
                the training and qualifications requirements for the size and
                complexity of the acquisitions to which they are assigned.

                Federal policy requires each agency to collect, maintain, and
                utilize information to ensure effective management of the
                acquisition workforce. However, the Department of Homeland
                Security, U.S. Coast Guard, Transportation Security
                Administration, and U.S. Customs and Border Protection do not
                have complete, reliable information and related supporting
                documentation about their acquisition personnel and their
                assignments. Without such information, the Department of
                Homeland Security has no assurance that qualified staff are
                managing its acquisitions.

                Moreover, several management directives relate to the acquisition
                workforce and the training and qualifications they need to manage
                major acquisitions. Some of these directives do not reflect current
                federal policy and are inconsistent with each other, creating
                confusion about which acquisitions require which levels of
                acquisition workforce certification.

                We are making 3 recommendations to improve the department’s
                ability to manage its acquisition workforce. Management
                generally concurred with our recommendations and we consider
                them resolved.




                    Acquisition Workforce Training and Qualifications

                                           1
Background
                         With DHS spending about 39% of its budget annually through
                         contracts, a high-performing acquisition workforce is fundamental
                         to DHS’ ability to accomplish its missions. For example, skilled
                         program managers are critical in developing accurate government
                         requirements, defining measurable performance standards, and
                         managing contractor activities to ensure that intended outcomes are
                         achieved. DHS’ Acquisition Oversight Program Guidebook
                         further emphasizes this connection.

                                  “A good human capital management approach
                                  ensures that an agency has the right staff, in the
                                  right number, with the right skills, in the right
                                  places, to accomplish its mission effectively. This
                                  approach requires that an agency devote
                                  adequate resources to provide its acquisition
                                  workforce with the training and knowledge
                                  necessary to perform their jobs. It also requires
                                  long-range planning, including succession
                                  planning, to ensure the workforce has the
                                  necessary skills and qualifications to perform the
                                  acquisition function into the future.”

                         The National Defense Authorization Act for Fiscal Year 1996
                         requires agencies to manage effectively and uniformly their
                         acquisition workforces, including accession, education, training,
                         career development, and performance incentives. The Office of
                         Management and Budget (OMB) refined this requirement “to
                         establish the government-wide framework for creating a federal
                         acquisition workforce with the skills necessary to deliver best
                         value supplies and services, find the best business solutions, and
                         provide strategic business advice to accomplish agency missions.” 1

                         The OMB framework, formalized as the federal acquisition
                         certification in contracting (FAC-C) and the federal acquisition
                         certification for program and project managers (FAC-P/PM),
                         specifies the education, training, and experience necessary to
                         achieve three certification levels: I, II, or III for FAC-C and entry
                         level/apprentice, mid-level/journeyman, and senior level/expert for
                         FAC-P/PM. The higher the certification level an individual
1
 OMB, Developing and Managing the Acquisition Workforce, Policy Letter 05-01, April 15, 2005; The
Federal Acquisition Certification in Contracting Program, January 20, 2006; The Federal Acquisition
Certification for Program and Project Managers, April 25, 2007.

                              Acquisition Workforce Training and Qualifications

                                                     2
                          attains, the larger the contract or program the individual can
                          manage. For example, a DHS contracting officer must have a
                          level III certification to sign procurement actions with total
                          contract costs of more than $25 million, including options, award
                          fees, and total potential contract ceilings. In contrast, a contracting
                          officer with a level I certification can sign procurement actions up
                          to the simplified acquisition threshold, which is currently
                          $100,000. Table 1 shows another example of the distinctions
                          between FAC-P/PM certification levels. Each certified individual
                          must meet the previous level certification requirements before
                          becoming eligible for a higher certification level.

                          Table 1: Program/Project Manager Certification Levels and Roles and
                          Responsibilities

                            Certification                            Roles and Responsibilities
                                                Perform as a project team member and manage low risk and
                          Entry Level /
                                                relatively simple projects or manage more complex projects
                          Apprentice
                                                under direct supervision of a more experienced manager.
                          Mid-Level /           Manage projects or program segments of low to moderate
                          Journeyman            risks with little or no supervision.
                                                Manage and evaluate moderate to high-risk programs that
                          Senior Level /
                                                require significant acquisition investment and agency
                          Expert
                                                knowledge and experience.
                          Source: OMB, The Federal Acquisition Certification for Program and Project Managers, April 25,
                          2007.


                          The FAC-P/PM is not mandatory for all program managers,
                          defined in the applicable DHS management directive as “the
                          agency customer uniquely empowered to make final scope of
                          work, capital investment, and performance acceptability decisions,
                          and who is responsible for accomplishing program objectives . . .
                          through the acquisition of . . . in-house, contract, or reimbursable
                          support resources.” However, program managers assigned to
                          major acquisitions must be certified at the senior level, unless an
                          authorized official waives requirements in writing, on a case-by-
                          case basis. 2

                          According to FAC-P/PM, to maintain a valid certification, each
                          individual must earn at least 80 continuous learning points every

2
 OMB defines major acquisitions, in part, as “a system or project requiring special management attention
because of its importance to the mission or function of the agency” (OMB, Planning, Budgeting,
Acquisition, and Management of Capital Assets, Circular No. A-11, Part 7, July 2007). Agencies have
discretion to expand the definition. DHS guidance is unclear on this point, as discussed in this report.

                               Acquisition Workforce Training and Qualifications

                                                         3
                            2 years. Individuals earn points for training activities, such as
                            teaching, self-directed study, and mentoring; courses completed to
                            achieve higher certification; professional activities, such as
                            attending, speaking, or presenting at professional seminars,
                            publishing, and attending workshops; or educational activities,
                            such as formal training and academic programs. FAC-P/PMs also
                            earn points for developmental or rotational assignments.

Results of Audit
                            DHS, Coast Guard, TSA, and CBP do not have complete, reliable
                            information and related supporting documentation about their
                            contracting officers, program managers, and COTRs and their
                            assignments. Without such information, DHS has no assurance
                            that qualified staff are managing its acquisitions. Moreover, some
                            management directives related to the acquisition workforce do not
                            reflect current federal policy and are inconsistent with each other,
                            creating confusion about which acquisitions require which levels
                            of acquisition workforce certification. Some components are
                            taking steps to improve oversight of their contracting officers’,
                            program managers’, and COTRs’ training and qualifications.
                            When fully implemented, these initiatives should improve DHS’
                            compliance with applicable requirements and its ability to manage
                            efficiently its major acquisition workload.

           DHS and Component Databases
                            Federal policy requires each executive agency to collect, maintain,
                            and utilize information to ensure effective management of the
                            acquisition workforce. 3 DHS and its components need complete,
                            accurate, and reliable data on its contracting officers, program
                            managers, and COTRs to ensure that the appropriate number and
                            mix of certified acquisition personnel are overseeing DHS’
                            numerous mission-critical acquisitions. Moreover, DHS and its
                            components also need accurate data so they can manage the
                            workloads and training of their acquisition workforce.

                            DHS and its components maintain databases of information on
                            their contracting officers, program managers, and COTRs. Based
                            on the purpose of the DHS Acquisition Workforce Development
                            Office (DHS AWF) database, it should contain the same total
                            number and same individual names as the 3 component databases.

3
    OMB, Developing and Managing the Acquisition Workforce, Policy Letter 05-01, April 15, 2005.

                                Acquisition Workforce Training and Qualifications

                                                       4
                           Instead, there were large differences in the number and names of
                           acquisition personnel listed in the DHS AWF and component
                           databases, as detailed in the tables below. 4

                           The DHS AWF database contained 1,506 names of contracting
                           officers, program managers, and COTRs for the Coast Guard,
                           TSA, and CBP. By comparison, component databases contained
                           2,136 names, 42% more than the DHS AWF database.

                           1,322 of the 1,506 names
                           (88%) in the DHS AWF        Table 2: Database Comparison
                           database appeared in the        Names        DHS AWF Components
                           component databases.
                                                       Listed in Both      1,322          1,322
                           However, the other 184
                           names (12%) in the DHS      Unique                 184           814
                           AWF did not appear in the        Total          1,506          2,136
                           component databases. In
                           addition, 814 names (38%) Source: OIG analysis of agency data.
                           in the component databases were not in the DHS AWF database.

                           We analyzed these results by acquisition role and component
                           (Appendix C). Data on program managers had the highest match
                           rate, with 90% overlap between the DHS AWF database and the
                           components. The average match rate for contracting officers was
                           85% and 88% for CBP and TSA COTRs. By component, CBP had
                           the highest match rate with the DHS AWF database at 91%. By
                           contrast, Coast Guard had 82% and TSA had 87%.

                           We also compared the databases to the acquisition personnel
                           assigned to the contracts we selected for the audit. The DHS
                           components identified for us the acquisition personnel assigned to
                           each contract during our review time frame, January 2006 to April
                           2007. We then checked whether the names were in the component
                           databases. The 3 component databases together contained between
                           64% and 75% of the assigned personnel (Table 3). For example,
                           the Coast Guard database contained 20 names of the 35 COTRs
                           (57%) that Coast Guard officials told us were working on the
                           contracts we selected. The TSA database contained 8 names of the
                           12 contracting officers (67%) TSA officials told us were working
                           on the contracts we selected. For each component reviewed, at
                           least 1 individual assigned to the contract was not in the database.


4
    We excluded Coast Guard COTRs from our analysis due to data compatibility problems.

                                Acquisition Workforce Training and Qualifications

                                                       5
          Table 3: Personnel Assigned to Selected Contracts Compared to
          Component Databases
                                                         Contracting   Program
                          Component                       Officers     Managers
                                                                                  COTRs

          Component Coast Guard, CBP, and TSA
              Component Databases                           50            9        46
              OIG Selected Contracts                        66          14         66
              Match Rate                                    76%         64%       70%
          Coast Guard
              Component Databases                            28           1        20
              OIG Selected Contracts                         38           2        35
              Match Rate                                    74%         50%       57%
          CBP
              Component Databases                            14           3        13
              OIG Selected Contracts                         16           7        16
              Match Rate                                    88%         43%       81%
          TSA
              Component Databases                             8           5        13
              OIG Selected Contracts                         12           5        15
              Match Rate                                    67%         100%      87%
          Source: OIG analysis of agency data.



          These discrepancies indicate that DHS and the 3 components do
          not have effective internal controls to ensure that they maintain
          complete and reliable data on their acquisition workforce. DHS is
          likely not complying with federal policies that require each
          executive agency to collect, maintain, and utilize information to
          ensure effective management of the acquisition workforce. At the
          same time, DHS and the 3 components probably do not have all
          the information they need, such as a current inventory of certified
          personnel and the acquisitions to which they are assigned, for
          sound acquisition workforce management decisions.

Component Supporting Documentation
          Federal policy and DHS management directives for acquisition
          workforce certification require agencies to maintain supporting



                Acquisition Workforce Training and Qualifications

                                         6
                         documentation for the certification process. 5 For the most part, the
                         acquisition personnel files that we reviewed did not have
                         supporting documentation, such as applications, DHS
                         certifications, training certificates, transcripts, and waivers. None
                         of the components had complete training, warrant, and certification
                         files for their contracting officers, program managers, and COTRs
                         readily available.

                         Coast Guard: Of the 75 Coast Guard contracting officers’,
                         program managers’, and COTRs’ files we reviewed, 32 files (43%)
                         had no documentation showing compliance with required basic
                         skills training and 54 files (72%) had no evidence of skills
                         currency (Table 4). Further, 13 of 35 COTR files (37%) had no
                         evidence of procurement ethics training, a requirement that does
                         not apply to contracting officers and program managers.

                         Table 4: Supporting Documentation for Coast Guard Acquisition
                         Personnel Assigned to Sample Contracts between January 2006 and
                         April 2007
                                                             Files Reviewed That Did Not Contain Sufficient Evidence

                              Supporting                                   Contracting     Program
                             Documentation                       Total      Officers       Managers         COTRs
                                                             (Percent of    (Percent of     (Percent of    (Percent of
                                                              75 Total)      38 COs)          2 PMs)       35 COTRs)


                         DHS Certification                        16            2               1             13
                                                                 (21%)         (5%)           (50%)          (37%)

                         Skills Currency                          54            24              2             28
                                                                 (72%)         (63%)         (100%)          (80%)

                         Basic Skills Training                    32            19              2             12
                                                                 (43%)         (50%)         (100%)          (34%)

                         Application for DHS                      41            30              2             10
                         Certification                           (55%)         (79%)         (100%)          (29%)

                         Procurement Ethics                                                                   13
                                                                 n.a.          n.a.            n.a.
                         Training                                                                            (37%)
                         n.a. Not applicable to this role.

                         Source: OIG analysis of Coast Guard files.




5
 DHS, Contracting Officer Warrant Program, Management Directive 0740.2, March 12, 2004; COTR
Certification, Appointment & Responsibilities, Management Directive 0780.1, December 20, 2004;
Contracting Professional (GS-1102) Career Information, Management Directive 0781.1; February 22,
2005; and Acquisition Certification Requirements for Program Manager, Management Directive 0782,
May 26, 2004; OMB, Developing and Managing the Acquisition Workforce, Policy Letter 05-01, April 15,
2005.

                               Acquisition Workforce Training and Qualifications

                                                             7
We also examined the expiration dates of the contracting officer’s
certifications. When a contracting officer’s certification expires,
the contracting officer no longer meets required qualifications. For
the 36 contracting officers whose files contained a DHS
certification, 11 (31%) had expired as of July 31, 2007. The lapsed
DHS certifications we reviewed had been expired for about
6 months, on average, with the longest expired for 22 months.

Only those employees with specific contracting officer authority
known as a warrant may execute contracts on behalf of DHS.
Coast Guard files we reviewed for active contracts contained
expired warrants. Documentation the Coast Guard provided us
indicated that 13% of the contracting officers assigned to contracts
in our audit sample might be working with lapsed warrants.
Compared to August 31, 2007, one contracting officer’s warrant
had been expired for 20 months, 2 other contracting officers’
warrants had been expired for 5 months, and 2 others’ warrants had
been expired for 3 months.

As of October 15, 2007, Coast Guard had not provided us with all
evidence of certification or warrant renewals or evidence of
transferring these individuals’ responsibilities. Moreover, Coast
Guard did not fully explain why the warrants have been allowed to
expire or have not been renewed. Coast Guard officials told us
that supervisors are responsible for ensuring that the contracting
officers working for them have current warrants. While this is a
reasonable first level of oversight, agencies need additional
internal control measures to ensure that the supervisors fulfill this
responsibility.

TSA: The TSA files we reviewed were more organized and tended
to contain more information than the Coast Guard files.
Nevertheless, some files did not comply with applicable
management directives and did not have supporting documentation
to verify certification, skills currency, and basic skills training
(Table 5). For example, 3 files of the 32 files (9%) we reviewed
did not contain DHS certifications; 19 files (59%) did not contain
evidence that the individual complied with skills currency
requirements; 7 files (22%) did not indicate that the individual
completed basic skills training (core courses).




    Acquisition Workforce Training and Qualifications

                           8
Table 5: Supporting Documentation for TSA Acquisition Personnel
Assigned to Sample Contracts between January 2006 and April 2007
                                    Files Reviewed That Did Not Contain Sufficient Evidence

     Supporting                                   Contracting     Program
    Documentation                       Total      Officers       Managers         COTRs
                                    (Percent of    (Percent of     (Percent of    (Percent of
                                     32 Total)      12 COs)          5 PMs)       15 COTRs)


DHS Certification                        3             0               0              3
                                        (9%)          (0%)            (0%)          (20%)

Skills Currency                          19            6               2             11
                                        (59%)         (50%)          (40%)          (73%)

Basic Skills Training                    7             4               2              1
                                        (22%)         (33%)          (40%)           (7%)

Application for DHS                      5             2               0              3
Certification                           (16%)         (17%)           (0%)          (20%)

Procurement Ethics                                                                    7
                                        n.a.          n.a.            n.a.
Training                                                                            (47%)
n.a. Not applicable to this role.

Source: OIG analysis of TSA files.


CBP: CBP was in the process of gathering additional information
from its human resources department when we discontinued our
audit work. Consequently, our analysis of CBP was limited. We
reviewed the documentation CBP provided us initially and
determined that some files did not contain certifications or
contained expired certifications; many of the files did not contain
evidence that the individuals completed ethics training (Table 6).
For example, 12 of 40 personnel (30%) had no documentation of
their DHS certifications in their files.

Table 6: Supporting Documentation for CBP Acquisition Personnel
Assigned to Sample Contracts between January 2006 and April 2007
                                    Files Reviewed That Did Not Contain Sufficient Evidence

     Supporting                                   Contracting     Program
    Documentation                       Total      Officers       Managers         COTRs
                                    (Percent of    (Percent of     (Percent of    (Percent of
                                     40 Total)      17 COs)          7 PMs)       16 COTRs)


DHS Certification                        10            0               6              4
                                        (25%)         (0%)           (86%)          (25%)

Procurement Ethics                                                                    6
                                        n.a.          n.a.            n.a.
Training                                                                            (38%)
n.a. Not applicable to this role.

Source: OIG analysis of CBP files.




      Acquisition Workforce Training and Qualifications

                                    9
           Government-wide Acquisition Career Management Information
           System
                            By July 1, 2007, all civilian agencies were required to maintain
                            complete and current acquisition workforce certification records in
                            the Acquisition Career Management Information System
                            (ACMIS). 6 DHS did not meet the deadline. DHS planned to
                            populate its own learning management system, DHScovery, and
                            enable it to interface with ACMIS. Schedule problems and
                            technical issues prevented implementation of this plan. DHS
                            delayed entering its data into ACMIS because it wanted to
                            eliminate entry of certification and training information into
                            multiple systems, according to the DHS official we interviewed.

                            On June 28, 2007, the DHS Chief Procurement Officer notified the
                            Office of Management and Budget that DHS would not meet the
                            July 1, 2007, deadline and that DHS suspended its effort to
                            integrate DHScovery and ACMIS. DHS estimated it would finish
                            entering the requisite data into ACMIS by March 21, 2008. In
                            April 2008, the responsible DHS official told us that the
                            department did not meet the estimate. System problems and
                            transition to a new support contractor delayed data entry.

                            Not using ACMIS hindered the Federal Acquisition Institute’s
                            ability to provide training curriculum support and oversight of the
                            federal acquisition certification programs. The Federal Acquisition
                            Institute is responsible for reviews of agency compliance with
                            certification standards and providing enough on-line and classroom
                            training for contracting officers, program managers, and COTRs
                            government-wide.

           DHS Management Directives
                            Several DHS management directives apply to such acquisition
                            personnel as contracting officers, program managers, and COTRs.
                            Some directives were not revised timely to reflect current federal
                            requirements; others did not establish necessary polices; and others
                            were inconsistent with one another. Consequently, their usefulness
                            to the affected offices and staff was limited.

                            OMB issued the certification program for contracting officers in
                            January 2006; DHS did not issue an interim management directive

6
    OMB, Developing and Managing the Acquisition Workforce, Policy Letter 05-01, April 15, 2005.

                                Acquisition Workforce Training and Qualifications

                                                       10
                           to reflect the changes until April 2007, more than one year later.
                           DHS officials told us that the differences between DHS
                           management directives and FAC/C were not significant, so
                           updating the directives was not urgent.

                           OMB issued the new FAC-P/PM program requirements in April
                           2007; as of October 2007, DHS had not revised its program
                           management directive to reflect the new requirements. Significant
                           differences exist between the FAC-P/PM program and the DHS
                           program management directive. For example, the FAC-P/PM
                           program requires entry level/apprentice certificate holders to have
                           a minimum of 24 hours in earned value management; the DHS
                           program management directive does not require any training in
                           earned value management for level I certificate holders.
                           Furthermore, some components have delayed implementing the
                           new federal certification requirements because DHS delayed
                           revising an existing management directive or issuing a new
                           directive. DHS officials told us they planned to issue a revised
                           directive by the end of calendar year 2007, but had not done so as
                           of April 2008.

                           DHS has not established policy on the development, selection,
                           assignment, and management of program managers. According to
                           the existing management directive, DHS will issue such guidance
                           in its forthcoming acquisition workforce development program
                           manual. 7 Until then, components are directed to use discretion in
                           developing procedures for selection, assignment, and management
                           of program managers.

                           The absence of up-to-date guidance creates a challenge for DHS
                           components to track program manager selections, assignments,
                           skills currency, and certifications, and thereby ensure that only
                           qualified employees have significant acquisition responsibilities.
                           Some components have multiple, geographically dispersed
                           program offices, increasing the complexity of tracking and
                           managing program managers. According to one DHS official,
                           some program offices cannot identify their assigned program
                           managers.

                           DHS does not follow its program manager management directive
                           with regard to cost definitions and certification levels; instead, it
                           uses the investment review process management directive. 8 The
7
    DHS, Acquisition Certification Requirements for Program Manages, Management Directive 0782.
8
    DHS, Investment Review Process, Management Directive 1400, May 2003.

                                Acquisition Workforce Training and Qualifications

                                                       11
                           investment review process management directive requires that a
                           program manager for a single contract with contract costs
                           exceeding $50 million 9 have a level III certification (senior
                           level/expert in FAC-P/PM), the highest level with the most
                           education, training, and experience. By contrast, the DHS program
                           manager directive 10 stipulates that the program manager of a non-
                           information technology acquisition with program acquisition costs
                           between $50 million and $100 million 11 must have a level II
                           certification (mid-level/journeyman in FAC-P/PM). The level II
                           certification requires less education, training, and experience than
                           the level III. Consequently, the inconsistencies in DHS directives
                           might allow a level II program manager to be assigned to a larger
                           acquisition than a level III program manager.

         DHS and Component Initiatives
                           Some components are taking steps to improve oversight of their
                           contracting officers’, program managers’, and COTRs’ training
                           and qualifications. When fully implemented, these initiatives
                           should improve DHS’ compliance with applicable requirements
                           and its ability to manage efficiently its major acquisition workload.
                           For example, TSA has a certification and management database
                           that shows program managers’ current certifications and
                           assignments. A TSA official told us they periodically reconcile
                           their program manager certification management database to the
                           DHS AWF database. TSA is developing a COTR certification and
                           management system and has established a COTR support office in
                           TSA’s Acquisition Office that will focus exclusively on COTR
                           management and the certification program. Recently, Coast Guard
                           implemented a contracting officer warrant management system, a
                           system TSA uses, that will automate the warrant certification
                           process. It will enforce DHS warrant guidelines, separation of
                           duties, and internal controls. It will also generate reports on
                           pending warrants and warrants by issuing authority. It will have a
                           tickler feature to alert when warrants are about to expire and skills
                           currency is due.




9
  Contract cost, also known as total contract value, includes options, award terms, and total potential
contract ceilings.
10
   DHS, Acquisition Certification Requirements for Program Manager, Management Directive 0782.
11
   Program acquisition costs are program initiation, concept and technology development, capability
development and demonstration, and production and deployment costs.

                                Acquisition Workforce Training and Qualifications

                                                       12
Conclusions
                            The absence of complete, accurate, and reliable data on contracting
                            officers, program managers, and COTRs likely impedes DHS’
                            effective management of its acquisition workforce. Moreover, not
                            providing high-quality information to the Federal Acquisition
                            Institute complicates planning for recruiting, hiring, training, and
                            budgeting. Finally, DHS’ untimely and inconsistent management
                            directives add confusion to the already-complicated major
                            acquisition process.

                            The capabilities of DHS’ acquisition workforce will determine, to
                            a great extent, whether major acquisitions fulfill DHS’ urgent and
                            complex mission needs. Contracting officers, program managers,
                            and COTRs make critical decisions on a nearly daily basis that
                            increase or decrease an acquisition’s likelihood of success. DHS
                            must devote adequate resources to ensure that it has “the right
                            staff, in the right number, with the right skills, in the right places,
                            to accomplish its mission effectively.” 12

Recommendations
                            We recommend that the Under Secretary for Management,
                            together with component acquisition officials,

                            Recommendation #1: Develop policies, procedures, and practices
                            to maintain and regularly reconcile an accurate, current, and
                            reliable inventory of contracting officers, program managers, and
                            COTRs and their assignments that fully complies with
                            government-wide requirements.

                            Recommendation #2: Establish quality control policies,
                            procedures, and practices to ensure that the requisite data are
                            entered into ACMIS and agency officials have access to evidence
                            that certified contracting officers, program managers, and COTRs
                            meet education, training, and experience requirements.

                            Recommendation #3: Revise DHS acquisition workforce related
                            management directives to resolve inconsistencies and to reflect
                            current federal training and qualifications requirements for
                            contracting officers, program managers, and contracting officer’s
                            technical representatives.

12
     DHS, Acquisition Oversight Program Guidebook, 0784 Publication, July 2005.

                                Acquisition Workforce Training and Qualifications

                                                       13
Management Comments and OIG Analysis
             DHS did not fully concur with our findings, but generally
             concurred with our recommendations. DHS disagreed with our
             sampling methodology, asserting that it resulted in statistically
             insignificant samples. In addition, DHS maintained that
             differences between the components’ databases and that of DHS
             AWF are due, in part, to the lag between data entry into their
             respective databases. DHS also commented that these differences
             are expected because the components’ historical files contain more
             records than the DHS database that has existed for a few years.
             With respect to expired warrants, DHS stated that we did not prove
             contracting officers executed actions without proper authority.

             With respect to our methodology, the components were unable to
             provide us lists of current acquisition workforce personnel by
             position, i.e., contracting officer, program manager, and COTR.
             Consequently, we focused on the areas that would create risk for
             DHS mission accomplishment, that is, large, recent contracts. We
             then audited the records for the personnel involved in those
             contracts. We relied on the components to identify the individuals
             assigned to our sample contracts. We did not verify the accuracy
             and completeness of these lists the components provided us.

             The significant differences between the DHS and components’
             databases indicate that periodic reconciliations have not been
             conducted. While the data entry lag time might explain some
             differences, it is unlikely the cause of the large number of
             differences. In addition, we disagree with DHS’ assertion that
             historical files account for the significant discrepancies. The
             components provided us lists of currently certified individuals that
             would reflect data that at most would be 4 years old, given the
             duration of a valid certification. With respect to expired warrants,
             it is up to the components to demonstrate that they have policies
             and procedures in place to ensure that only contracting officers
             with proper authority can execute contractual actions.

             DHS concurred with our recommendations and has initiated or is
             planning actions to improve the tracking of acquisition personnel
             and documentation of their qualifications and assignments. These
             actions are responsive to our recommendations, and, when fully
             implemented, will likely improve the situation. We consider these
             recommendations resolved, but open, until DHS fully implements
             the corrective actions.

                 Acquisition Workforce Training and Qualifications

                                        14
Appendix A
Purpose, Scope, and Methodology



                   Our audit objective was to determine the adequacy of internal
                   controls to ensure compliance with applicable training and
                   qualifications requirements for DHS’ acquisition workforce.

                   Our audit scope included the DHS Acquisition Workforce
                   Development Office (DHS AWF) within the Office of the Chief
                   Procurement Officer, Coast Guard, TSA, and CBP. We analyzed
                   policies and procedures, conducted interviews with knowledgeable
                   officials, and reviewed relevant files. We reviewed DHS AWF
                   and component workforce data and assessed internal controls over
                   the certification process. We selected a judgmental sample of non-
                   information technology contracts worth more than $5 million. The
                   DHS components identified for us the acquisition personnel
                   assigned to each selected contract. We did not independently
                   verify the accuracy and completeness of the lists of acquisition
                   workforce personnel the components provided us.

                   We reviewed training, warrant, and certification records for the
                   contracting officers, program managers, and contracting officer’s
                   technical representatives (COTRs) who worked on our selected
                   sample contracts between January 2006 and April 2007. We
                   evaluated the files based on the DHS management directives in
                   effect at the time. We completed our file review for all active
                   Coast Guard and TSA contracts with values, including options, of
                   $50 million or more. We also examined some CBP workforce
                   files. We conducted our fieldwork for this audit between April
                   2007 and September 2007, under the authority of the Inspector
                   General Act of 1978, as amended, and according to generally
                   accepted government auditing standards.




                       Acquisition Workforce Training and Qualifications

                                              15
Appendix B
Management Comments on the Draft Report




                     Acquisition Workforce Training and Qualifications

                                            16
Appendix B
Management Comments on the Draft Report




                     Acquisition Workforce Training and Qualifications

                                            17
Appendix B
Management Comments on the Draft Report




                     Acquisition Workforce Training and Qualifications

                                            18
Appendix B
Management Comments on the Draft Report




                     Acquisition Workforce Training and Qualifications

                                            19
Appendix B
Management Comments on the Draft Report




                     Acquisition Workforce Training and Qualifications

                                            20
Appendix B
Management Comments on the Draft Report




                     Acquisition Workforce Training and Qualifications

                                            21
Appendix B
Management Comments on the Draft Report




                     Acquisition Workforce Training and Qualifications

                                            22
Appendix B
Management Comments on the Draft Report




                     Acquisition Workforce Training and Qualifications

                                            23
Appendix B
Management Comments on the Draft Report




                     Acquisition Workforce Training and Qualifications

                                            24
Appendix B
Management Comments on the Draft Report




                     Acquisition Workforce Training and Qualifications

                                            25
Appendix B
Management Comments on the Draft Report




                     Acquisition Workforce Training and Qualifications

                                            26
Appendix B
Management Comments on the Draft Report




                     Acquisition Workforce Training and Qualifications

                                            27
Appendix B
Management Comments on the Draft Report




                     Acquisition Workforce Training and Qualifications

                                            28
Appendix C
Acquisition Personnel Database Comparison, by Component



                                Total             Contracting Officers         Program Managers             COTRs*
   COAST
GUARD, CBP,                             Coast                    Coast                       Coast
  AND TSA                               Guard,                   Guard,                      Guard,             CBP
 COMBINED                DHS             CBP        DHS           CBP,          DHS           CBP,    DHS       and
                         AWF           and TSA      AWF         and TSA         AWF         and TSA   AWF       TSA
Listed in Both          1,322          1,322          348           348           309         309     665       665
Unique                    184            814           60           150            36          33     88        631
      Total             1,506          2,136          408           498           345         342     753      1,296


    COAST                DHS           Coast        DHS            Coast        DHS         Coast
    GUARD                AWF           Guard        AWF            Guard        AWF         Guard
Listed in Both            266            266          218           218            48          48
Unique                     57             98           44            91            13           7
      Total               323            364          262           309            61          55


                         DHS                        DHS                         DHS                   DHS
      CBP                AWF            CBP         AWF            CBP          AWF          CBP      AWF       CBP
Listed in Both            599            599           73            73            26          26     500       500
Unique                     56            348             1           22                 2       2     53        324
      Total               655            947           74            95            28          28     553       824


                         DHS                        DHS                         DHS                   DHS
      TSA                AWF            TSA         AWF            TSA          AWF          TSA      AWF       TSA
Listed in Both            457            457           57            57           235         235     165       165
Unique                     71            368           15            37            21          24     35        307
      Total               528            825           72            94           256         259     200       472
* We excluded Coast Guard COTRs from our analysis due to data compatibility problems.

Source: OIG analysis of agency data.




                                       Acquisition Workforce Training and Qualifications

                                                              29
Appendix D
Major Contributors to this Report



                    Rosalyn G. Millman, Director
                    Ruth Blevins, Audit Manager
                    Sharon Trodden, Auditor-in-Charge
                    Melissa Jones, Analyst
                    Andre Marseille, Analyst
                    Matthew Noll, Analyst




                       Acquisition Workforce Training and Qualifications

                                              30
Appendix E
Report Distribution



                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Chief Procurement Officer
                      Assistant Secretary for Office of Legislative Affairs
                      Commissioner, Customs and Border Protection
                      Customs and Border Protection, OIG Audit Liaison
                      Assistant Secretary, Transportation Security Administration
                      Transportation Security Administration, OIG Audit Liaison
                      Commandant, U.S. Coast Guard
                      U.S. Coast Guard, OIG Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                          Acquisition Workforce Training and Qualifications

                                                 31
Additional Information and Copies
To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web site at
www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations:

   •   Call our Hotline at 1-800-323-8603
   •   Fax the complaint directly to us at (202) 254-4292
   •   Email us at DHSOIGHOTLINE@dhs.gov
   •   Write to us at:
              DHS Office of Inspector General/MAIL STOP 2600
              Attention: Office of Investigations – Hotline
              245 Murray Drive, SW, Building 410
              Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
